CONSUMER
CREDIT CARD
AGREEMENT
AND
DISCLOSURE
This Consumer Credit Card Agreement and Disclosure together with the Account Opening Disclosure and any other Account
opening documents or any subsequent documents provided to You related to this Account (hereinafter collectively referred
to as “Agreement”) govern the terms and conditions of this Account. “We,” “Us,” “Our” and “Ours” and “Credit Union” refers
to Wescom Central Credit Union with which this Agreement is made. “You,” “Your,” and “Yours” refers to each applicant
and co-applicant for the Account; any person responsible for paying the Account; and anyone You authorize to use, access
or service the Account. "Card" means the Visa® credit card and any other access devices, duplicates, renewals, or
substitutions, the Credit Union issues to You. "Account" means the line of credit established by this Agreement and includes
Your Card.
SECURED CARD ONLY
SECURITY INTEREST
You grant the Credit Union a security interest under the Uniform Commercial Code and under any common law rights
the Credit Union may have in any goods You purchase.
If You give the Credit Union a specific pledge of shares by signing a separate pledge of shares, Your pledged shares
will secure Your Account. You may not withdraw amounts that have been specifically pledged to secure Your Account
until the Credit Union agrees to release all or part of the pledged amount. You understand that You must, at all times,
keep a balance equal to the credit limit on Your Account until You repay Your Account in full and Your Account is
closed.
You grant Us a security interest in all individual and joint share and/or deposit accounts and all earnings, You
have with Us now and in the future to secure Your credit card Account. Shares and deposits in an IRA or any
other account that would lose special tax treatment under state or federal law if given as security are not
subject to the security interest You have given in Your shares and deposits. You may withdraw these other
shares unless You are in default. When You are in default, You authorize Us to apply the balance in these
accounts to any amounts due. For example, if You have an unpaid credit card balance, You agree We may use
funds in Your account(s) to pay any or all of the unpaid balance.
Unless otherwise prohibited by federal and/or state law, collateral securing other loans You have with the Credit Union
may also secure this loan, except that a dwelling will never be considered as security for this Account, notwithstanding
anything to the contrary in any other Agreement.
1. USING YOUR ACCOUNT — By using the Account or keeping the Card, You agree to the terms of this Agreement. You
agree to use Your Account in accordance with this Agreement. Your Account must only be used for lawful transactions.
2. CREDIT LIMIT — We may establish a credit limit as part of this Agreement, which You promise not to exceed. If You
exceed the credit limit, You promise to repay immediately the amount which exceeds the credit limit, including amounts due
to finance charges, fees or other charges. For cash advances, ATM withdrawals, and balance transfers, You cannot exceed
50% of Your approved credit limit. You may request a credit limit increase on Your Account only by a method acceptable to
the Credit Union. We may increase or decrease Your credit limit, refuse to make an advance and/or terminate Your Account
at any time for any reason permitted by law.
3. REPAYMENT — You promise to repay all amounts You owe under this Agreement. Your promise to repay includes all
transactions made to Your Account by You or anyone You authorize to use Your Account as well as all interest charges
and fees.
For each billing period, You must pay at least the Minimum Payment Due by the Payment Due Date.
The Minimum Payment Due is 3.00% of Your total New Balance, or $15.00, whichever is greater, plus any amount past due
and any amount by which You have exceeded Your applicable credit limit. If Your total New Balance is less than $15.00,
then Your Minimum Payment Due is the amount of the total New Balance.
You may pay more frequently, pay more than the Minimum Payment Due or pay the total New Balance in full.
If You make extra or larger payments, You are still required to make at least the Minimum Payment Due each month Your
Account has a balance (other than a credit balance). The Credit Union may delay replenishing Your credit limit until the date
the payment is posted or the Credit Union confirms the payment has cleared.
© CUNA Mutual Group 1991, 2006, 09, 10, 12, 14, 16 All Rights Reserved

10426247-MXC30-C-1-050521 (MXC304-E)

Your payment of the required Minimum Payment Due may be applied to what You owe the Credit Union in any manner the
Credit Union chooses, as permitted by applicable law. If You make a payment in excess of the required Minimum Payment
Due, the Credit Union will allocate the excess amount first to the balance with the highest annual percentage rate (“APR”)
and any remaining portion to the other balances in descending order based on applicable APR, unless otherwise prescribed
by applicable law. We may accept checks marked "payment in full" or with words of similar effect without losing any of Our
rights to collect the full balance of Your Account with Us.
Skip Payment - If We make a skip payment option available, You may skip Your payment(s) for certain months(s). If You
choose this option, interest will continue to accrue during the skipped month(s) at the APR provided in Your Credit Card
Account Opening Disclosure, but no late payment charges will be imposed during the skip period. You will be required to
resume Your monthly payments right after the skipped month(s). Your first payment following the skipped month(s) will be
applied more towards the accrued interest. Skipping Your next payment may delay the repayment of Your principal and You
may pay higher total FINANCE CHARGES. All credit terms applicable immediately prior to the skip period will again apply
once the skip period has expired.
4. INTEREST AND FINANCE CHARGES — We will begin charging You interest on purchases on the date the transaction
is posted to Your Account. We will begin charging You interest on cash advances, ATM withdrawals, and balance transfers
on the date the transaction is posted to Your Account. However, We will not charge You any interest on new purchases if
Your Account had a zero or credit balance at the beginning of that billing cycle, or You paid the entire new balance on the
previous cycle's billing statement by the Payment Due Date of that statement. To avoid an additional finance charge on the
balance of purchases, You must pay the entire new balance on the billing statement by the Payment Due Date of that
statement.
How We Calculate Your Balance:
Interest charges on Your Account are calculated separately for purchases, balance transfers and cash advances
(“Transaction Type”). We calculate the interest charge for each Transaction Type by applying the periodic rate to each
corresponding “average daily balance.” To get the “average daily balance” for a Transaction Type We take the beginning
balance for that Transaction Type each day, add any new transactions of that type, and subtract any unpaid interest or other
finance charges and any applicable payments or credits. This gives Us the daily balance for each Transaction Type. Then,
for each Transaction Type, We add up all the daily balances for the billing cycle and divide each total by the number of days
in the billing cycle. This gives Us the “average daily balance” for each Transaction Type.
5. FEES — In addition to the periodic rate, additional fees may be imposed on Your Account. If applicable to Your Account,
the fee amounts and explanations are disclosed on the Account Opening Disclosure accompanying this Agreement.
6. FOREIGN TRANSACTIONS — Purchases and cash advances made in foreign currencies will be debited from Your
Account in U.S. dollars. The exchange rate between the transaction currency and the billing currency used for processing
international transactions is a rate selected by Visa from a range of rates available in wholesale currency markets for the
applicable transaction date, which rate may vary from the rate Visa itself receives, or the rate mandated by the government
or governing body in effect for the applicable transaction date. The exchange rate used on the transaction date may differ
from the rate that would have been used on the processing date or cardholder statement posting date.
7. AUTHORIZATIONS — We do not guarantee authorization of a transaction, either by Us or by a third party, even if You
have sufficient credit available. You agree that We will not be liable for failing to give an authorization. We also reserve the
right to limit the number of transactions that may be approved in one day. We reserve the right to deny certain transactions
for any reason and at Our sole discretion, including for default, suspected fraudulent or unlawful activity, internet gambling
or any indication of increased risk related to the transaction or the Account. You agree that We have no requirement to
notify You of the specific reason We denied a transaction. If We detect unusual or suspicious activity, We may suspend
Your credit privileges until We can verify the activity, or We may close the Account.
8. INFORMATION UPDATING SERVICE AND AUTHORIZATIONS — If You have authorized a merchant to bill charges
to Your Card on a recurring basis, it is Your responsibility to notify the merchant in the event Your Card is replaced, Your
Account information (such as Card number or expiration date) changes, or Your Account is closed. However, if Your Card
is replaced or Your Account information changes, You authorize Us, without obligation on Our part, to provide the updated
Account information to the merchant in order to permit the merchant to bill recurring charges to Your Card. You authorize
Us to apply such recurring charges to Your Card until You notify Us that You have revoked authorization for the charges to
Your Card.
Your Card is automatically enrolled in an information updating service. Through this service, Your updated Account
information (such as Card number or expiration date) may be shared with participating merchants to facilitate continued
recurring charges. Updates are not guaranteed before Your next payment to a merchant is due. You are responsible for
making direct payment until recurring charges resume. To revoke Your authorization allowing Us to provide updated Account
information to a merchant, please contact Us.
9. PREAUTHORIZED CHARGES — We may suspend preauthorized recurring charges with merchants if, for example,
Your Card is lost or stolen, You default, or We change Your Account for any reason. If preauthorized recurring charges are
suspended, You are responsible for making direct payment for such charges until You contact the merchant to reinstate
recurring charges.
Page 2 of 6
10426247-MXC30-C-1-050521 (MXC304-E)

10. DEFAULT — You will be in default under this Agreement if You fail to pay the Minimum Payment Due by its Payment
Due Date; pay by a check or similar instrument that is not honored or that We must return because it cannot be processed;
pay by automatic debit that is returned unpaid; make any false or misleading statements in any credit application or credit
update; file for bankruptcy; or die. You will also be in default if You fail to comply with the terms of this Agreement or any
other Agreement You have with Us.
If You default, We may close Your Account and require You to pay any unpaid balance immediately, subject to applicable
law. For a Secured Card, in this Agreement and on Your Credit Card Application, You gave Us a security interest in all
individual or joint share and/or deposit accounts with the Credit Union and authorized Us, if You defaulted, to apply the
balance in these accounts to any amounts due. You agree We may rely on Your agreement and authorization to, upon Your
default, apply any balance to any amounts due on Your Account.
11. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION — If You notice the loss or theft of
Your credit card or a possible unauthorized use of Your Card, You should write to Us immediately at P.O. Box 7058,
Pasadena, CA, 91109-7058 or call Us at (888) 493-7266, seven days a week 24 hours a day.
You will not be liable for any unauthorized use that occurs after You notify Us. You may, however, be liable for unauthorized
use that occurs before Your notice to Us. You will have no liability for unauthorized use unless You are found to be fraudulent
or negligent in the handling of Your Account or Card. In any case, Your liability for unauthorized transactions will not exceed
$50.
12. CHANGING OR TERMINATING YOUR ACCOUNT — As permitted by law, the Credit Union may change the terms of
this Agreement and any attached Disclosure from time to time. Notice of any change will be given in accordance with
applicable law. To the extent permitted by law, changes to the Agreement may apply to Your existing account balance as
well as to future transactions.
Arizona, California, Idaho, Louisiana, New Mexico, Nevada, Texas, Washington, and Wisconsin Residents - Either
You, Your spouse or the Credit Union may terminate this Agreement at any time, but termination by You, Your spouse or
the Credit Union will not affect Your obligation to pay the account balance plus any finance and other charges You or Your
spouse owe under this Agreement. Your obligation to pay the account balance plus any finance and other charges You owe
under this agreement are subject to all applicable laws and regulations regarding repayment requirements. The Card or
Cards You receive remain the property of the Credit Union and You must recover and surrender to the Credit Union all
Cards upon request or upon termination of this Agreement whether by You or the Credit Union.
Residents of all other states - Either You or the Credit Union may terminate this Agreement at any time, but termination
by You or the Credit Union will not affect Your obligation to pay the account balance plus any finance and other charges
You owe under this Agreement. Your obligation to pay the account balance plus any finance and other charges You owe
under this agreement are subject to all applicable laws and regulations regarding repayment requirements. The Card or
Cards You receive remain the property of the Credit Union and You must recover and surrender to the Credit Union all
Cards upon request or upon termination of this Agreement whether by You or the Credit Union.
13. AUTHORIZED USERS — Upon Your request, We may issue additional Cards for authorized users that You designate.
You must notify Us in writing of any termination of an authorized user's right to access Your Account. Your notice must
include the name of the authorized user and Your Account number and/or any subaccount number issued to the authorized
user along with the authorized user's Card. If You cannot return the authorized user's Card and if You request Your Account
to be closed, We will close Your Account and You may apply for a new Account. Alternatively, We may, at Our sole
discretion, issue You a new Account number and a new Card.
14. CREDIT REPORTS AND NOTICE OF NEGATIVE INFORMATION — You authorize the Credit Union to obtain credit
reports and any other information We may need to verify Your identity and use of the Account when opening Your Account
and for any update, increase, renewal, extension, collection or review of Your Account. You authorize the Credit Union to
disclose information regarding Your Account to credit bureaus and creditors who inquire about Your credit standing. We
may report information about Your Account to credit bureaus. Late payments, missed payments, or other defaults on Your
Account may be reflected on Your credit report.
15. JOINT ACCOUNTS — If this is a joint Account, each of You will be individually and jointly responsible for paying all
amounts owed under this Agreement. This means that the Credit Union can require any one of You individually to repay the
entire amount owed under this Agreement. Each of You authorizes the other(s) to make transactions on the Account
individually. Any one of You may terminate the Account and the termination will be effective as to all of You.
16. EFFECT OF AGREEMENT — This Agreement is the contract which applies to all transactions on Your Account even
though the sales, cash advances, credit or other slips You sign or receive may contain different terms.
17. SEVERABILITY AND FINAL EXPRESSION — This Agreement is the final expression of the terms and conditions of
Your Account. This written Agreement may not be contradicted by evidence of any alleged oral Agreement. Should any part
of this Agreement be found to be invalid or unenforceable, all other parts of this Agreement shall remain in effect and fully
enforceable to the fullest extent possible under this Agreement.
18. ILLEGAL TRANSACTIONS PROHIBITED — You agree that You will not use Your Card for any transaction, including
any type of electronic gambling transaction through the Internet, that is illegal under applicable federal, state, or local law.
Page 3 of 6
10426247-MXC30-C-1-050521 (MXC304-E)

Even if You use Your Card for an illegal transaction, You will be responsible for all amounts and charges incurred in
connection with the transaction. This paragraph shall not be interpreted as permitting or authorizing any transaction that is
illegal.
19. APPLICABLE LAW — The terms and enforcement of this Agreement shall be governed by federal law and the law of
California.
20. ENFORCING THIS AGREEMENT — We can delay in enforcing or fail to enforce any of Our rights under this Agreement
without losing them.
21. COLLECTION COSTS — If We refer collection of Your Account to a lawyer who is not Our salaried employee, You are
liable for any reasonable attorney’s fees We incur, plus the costs and expenses of any legal action, as further disclosed on
this Agreement, or to the extent allowed by law.
22. ASSIGNMENT — We may assign any or all of Our rights and obligations under this Agreement to a third party.
23. OVERDRAFT PRIVILEGE — You agree that if, pursuant to any overdraft privilege on a Credit Union Share Draft
Account, there is an overdraft of Your Share Draft Account, the amount of overdraft will be added to the outstanding balance
on Your Visa Credit Card Account, subject to the finance charge provisions set forth in “INTEREST AND FINANCE
CHARGES” as described for cash advances, and will be subject to all terms and conditions of this Agreement. The Visa
Credit Card Account must be current and not over the credit limit for funds to transfer to the Share Draft Account. Overdrafts
are not allowed for the purpose of making loan payments, including Visa Credit Card payments, at the Credit Union, ATM
or in-branch teller cash withdrawals. The Share Draft Account referred to herein is also subject to a separate agreement
between You and the Credit Union. Where the terms of any other agreement between You and the Credit Union conflict
with the terms of this Agreement, the terms of this Agreement will control.
24. MYREWARDS PROGRAM – All cash transactions including ATM withdrawals, balance transfer and cash advances,
do not accrue Rewards Points.
25. ELECTRONIC FUND TRANSFERS — In the event a use of the Account constitutes an Electronic Fund Transfer,
Regulation E shall govern liability for unauthorized use of such transactions.
26. LIMITATION OF TIME TO COMMENCE ACTION — Any action or proceeding by you to enforce an obligation, duty or
right arising under this Agreement or by law with respect to Your Account must be commenced within one year after the
cause of action accrues.
27. CONFIDENTIALITY OF ACCOUNT INFORMATION — You are responsible for securely maintaining Your Account
information, including, but not limited to Your Account number, card number, mobile or online banking login and password,
security code, PIN, 3-digit CVV code found on the back of Your Card (“Confidential Account Information”). Wescom Central
Credit Union will never email, text, or call You asking for Your Confidential Account Information.
28. CALIFORNIA RESIDENTS — A married applicant may apply for a separate Account. Applicants: 1) may, after credit
approval, use the credit card Account up to its credit limit; 2) may be liable for amounts extended under the plan to any joint
applicant. As required by law, You are hereby notified that a negative credit report reflecting on Your credit record may be
submitted to a credit reporting agency if You fail to fulfill the terms of Your credit obligations.
29. FLORIDA RESIDENTS — You (borrower) agree that, should We obtain a judgment against You, a portion of
Your disposable earnings may be attached or garnished (paid to Us by Your employer), as provided by Florida and
Federal law.
30. MARYLAND RESIDENTS — To the extent, if any, that Maryland law applies to Your Account, We elect to offer Your
Card Account pursuant to Title 12, Subtitle 9 of the Maryland Commercial Law Article.
31. MISSOURI RESIDENTS — Oral Agreements or commitments to loan money, extend credit or to forbear from
enforcing repayment of a debt including promises to extend or renew such debt are not enforceable. To protect
You (borrower(s)) and Us (creditor) from misunderstanding or disappointment, any Agreements We reach covering
such matters are contained in this writing, which is the complete and exclusive statement of the Agreement
between Us, except as We may later agree in writing to modify it.
32. NEW YORK RESIDENTS — We may obtain a credit report in connection with this Account, including for any review,
modification, renewal or collections associated with this Account. Upon Your request, You will be informed whether such
report was requested and, if so, the name and address of the consumer reporting agency furnishing the report. New York
residents may contact the New York State Banking Department at 800.342.3736 or www.dfs.ny.gov to obtain a comparative
listing of credit card rates, fees and grace periods.
33. OHIO RESIDENTS — The Ohio laws against discrimination require that all creditors make credit equally available to all
creditworthy customers and that credit reporting agencies maintain separate credit histories on each individual upon request.
The Ohio Civil Rights Commission administers compliance with this law.
34. SOUTH DAKOTA RESIDENTS — If You believe there have been any improprieties in making this loan or in the lender’s
loan practices, You may contact the South Dakota Division of Banking at 1601 N. Harrison Ave, Suite 1, Pierre, SD 57501,
or by phone at 605.773.3421.
Page 4 of 6
10426247-MXC30-C-1-050521 (MXC304-E)

35. WISCONSIN RESIDENTS — If You are married, please contact Us immediately upon receipt of this Agreement at the
address or phone number listed on this Agreement and provide Us with the name and address of Your spouse. We are
required to inform Your spouse that We have opened an Account for You.
36. NOTICE TO UTAH BORROWERS — This written Agreement is a final expression of the Agreement between You and
the Credit Union. This written Agreement may not be contradicted by evidence of any oral Agreement. As required by law,
You are hereby notified that a negative credit report reflecting on Your credit record may be submitted to a credit reporting
agency if You fail to fulfill the terms of Your credit obligations.
37. THE FOLLOWING IS REQUIRED BY VERMONT LAW — NOTICE TO CO-SIGNER — YOUR SIGNATURE ON THIS
NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR REPAYMENT OF THIS LOAN. IF THE BORROWER DOES
NOT PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM YOU.

Page 5 of 6
10426247-MXC30-C-1-050521 (MXC304-E)

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at the address listed on Your statement.
In Your letter, give Us the following information:

‐ Account information: Your name and Account number.
- Dollar amount: The dollar amount of the suspected error.
- Description of problem: If You think there is an error on Your bill, describe what You believe is wrong and why You
believe it is a mistake.
You must contact Us:
- Within 60 days after the error appeared on Your statement.
- At least three business days before an automated payment is scheduled, if You want to stop payment on the amount
You think is wrong.
You must notify Us of any potential errors in writing or electronically. You may call Us, but if You do We are not required
to investigate any potential errors and You may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1. Within 30 days of receiving Your letter, We must tell You that We received Your letter. We will also tell You if We have
already corrected the error.
2. Within 90 days of receiving Your letter, We must either correct the error or explain to You why We believe the bill is
correct.
While We investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or report You as delinquent on that amount.
- The charge in question may remain on Your statement, and We may continue to charge You interest on that amount.
- While You do not have to pay the amount in question, You are responsible for the remainder of Your balance.
- We can apply any unpaid amount against Your credit limit.
After We finish Our investigation, one of two things will happen:
- If We made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
- If We do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest
and fees. We will send You a statement of the amount You owe and the date payment is due. We may then report You
as delinquent if You do not pay the amount We think You owe.
If You receive Our explanation but still believe Your bill is wrong, You must write to Us within 10 days telling Us that You
still refuse to pay. If You do so, We cannot report You as delinquent without also reporting that You are questioning Your
bill. We must tell You the name of anyone to whom We reported You as delinquent, and We must let those organizations
know when the matter has been settled between Us.
If We do not follow all of the rules above, You do not have to pay the first $50 of the amount You question even if Your bill
is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your credit card, and You have tried in good
faith to correct the problem with the merchant, You may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in Your home state or within 100 miles of Your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You the goods or services.)
2. You must have used Your credit card for the purchase. Purchases made with cash advances from an ATM do not
qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase, contact Us in writing or electronically at
the address listed on Your statement.
While We investigate, the same rules apply to the disputed amount as discussed above. After We finish Our investigation,
We will tell You Our decision. At that point, if We think You owe an amount and You do not pay, We may report You as
delinquent.

Page 6 of 6
10426247-MXC30-C-1-050521 (MXC304-E)

